                       U.S. Environmental Protection Agency 	                                                   11-P-0597
                                                                                                         September 9, 2011
                       Office of Inspector General


                       At a Glance
                                                                               Catalyst for Improving the Environment

Why We Did This Review                   Results of Technical Vulnerability Assessment:
                                         EPA’s Directory Service System Authentication
The U.S. Environmental Protection
Agency (EPA), Office of Inspector
                                         and Authorization Servers
General, conducted this audit to
                                          What We Found
identify vulnerabilities associated
with EPA’s directory service
                                         Vulnerability testing of EPA’s directory service system authentication and
system authentication and
                                         authorization servers conducted in March 2011 identified authentication and
authorization servers, and provide
                                         authorization servers with numerous high-risk and medium-risk
the results to the appropriate EPA
                                         vulnerabilities. The Office of Inspector General met with EPA information
officials who can then promptly
                                         security personnel to discuss the findings. If not resolved, these
remediate and/or document planned
                                         vulnerabilities could expose EPA’s assets to unauthorized access and
actions to resolve the identified
                                         potentially harm the Agency’s network.
vulnerabilities. This audit was
conducted in support of the audit of
EPA’s implementation of its               What We Recommend
directory service system.
                                         We recommend that the Director, Enterprise Desktop Services Division,
Background                               Office of Environmental Information:

A directory service provides a               •	 Provide the Office of Inspector General a status update for all
centralized location to store                     identified high-risk and medium-risk vulnerability findings
information about the users,                      contained in this report.
computers, and other equipment on            •	 Create plans of action and milestones in the Agency’s Automated
a network, and provides integrated                Security Self-Evaluation and Remediation Tracking system for all
services that are used to manage                  vulnerabilities that cannot be corrected within 30 days of this report.
network users, services, and
devices. EPA uses a commercial-              •	 Perform a technical vulnerability assessment test of all Agency
off-the-shelf product for its                     directory service system authentication and authorization servers
directory service system. This                    within 60 days to confirm completion of remediation activities.
directory service system is
implemented using multiple               The full report is not available to the public due to the sensitive nature of its
servers, which EPA has placed in         technical findings.
various locations on its network to
provide enterprise-wide
authentication and authorization.

For further information, 

contact our Office of Congressional, 

Public Affairs and Management at

(202) 566-2391.
